                                        OFFICE OF INSPECTOR GENERAL
                                                               MEMORANDUM




DATE:         August 18, 2005

TO:           Chairman

FROM:         Inspector General

SUBJECT:      Report on Audit of the E-rate Program at St. Mary’s Catholic School, St.
              Croix, U.S. Virgin Islands

The Office of Inspector General (OIG) has completed an audit of the E-rate Program
benefits received by St. Mary’s Catholic School (the School), a beneficiary of the
Universal Service Fund (USF). A copy of the Audit Report, entitled “Final Report on
Audit of the E-rate Program at St. Mary’s Catholic School, St. Croix, U.S. Virgin
Islands” is attached. The objective of this audit was to assess the beneficiary’s
compliance with the rules and regulations of the USF program and to identify areas in
which to improve the program.

In January 2003, the OIG and the Universal Service Administrative Company (USAC)
entered into a Memorandum of Understanding (MOU) with the Department of the
Interior (DOI) OIG to conduct audits of E-rate beneficiaries. This audit was conducted
by DOI OIG under the terms of this MOU.

Based on the results of the audit, we have concluded that the School did not comply with
key requirements of the E-rate program for funding year 2000. The audit resulted in four
(4) findings and $120,051 in potential fund recoveries. We recommend that the Wireline
Competition Bureau direct the Universal Service Administrative Company (USAC) to
recover the amount of $120,051 disbursed on behalf of St. Mary’s Catholic School in
funding year 2000.

DOI OIG held an exit conference with the School’s Assistant Principal on January 14,
2004 to discuss a preliminary draft of this report, which was provided to the School on
January 8, 2004. The School’s Assistant Principal expressed agreement with the report’s
findings.

On September 1, 2004, we provided a copy of our draft audit report to the Chief of the
Wireline Competition Bureau (WCB). We requested that WCB provide comments on the
draft report andthat their commentsindicateconcurrenceor non-concurrence  with the
audit resultsandrecommendations.On October14,2004,WCB provideda responseto
the draft report. However,the commentsprovidedby WCB were not endorsedby the
Commission'sAudit Follow-up Official in accordancewith the Commission'sAudit
Follow-up Directive. Despiterepeatedrequestsfor properlyendorsedcommentsto this
reportin the eleven(11) monthssincethe reportwas issuedin draft, no endorsed
commentshavebeenprovided. As a result,we havedecidedto issuethis report in final.
If WCB providescommentsto this report,we will decideif it is necessaryto issuea
supplementalfinal report incorporatingthosecomments.

If you haveany questions,pleasecontactme or ThomasCline, AssistantInspector
Generalfor Policy and Planning,at (202) 418-7890.


                                        ~~~<:iifj
                                         H. Walker FeasterIII

Attachments

Copy furnished:

ElizabethHering, Administrator,St. Mary's Catholic School
Chief, Wireline CompetitionBureau
Mel Blackwell, Acting Vice President,Schoolsand LibrariesDivision, USAC
PerformanceEvaluationandRecordsManagement,FCC Office of ManagingDirector
                                                                          R-GR-FCC-0007-2003


                United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   External Audits Division
                             12030 Sunrise Valley Drive, Suite 230
                                      Reston VA 20191

                                                                                 August 15, 2005


                             AUDIT REPORT
Memorandum

To:        Inspector General
           Federal Communications Commission

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Report on Audit of the E-rate Program at St. Mary’s Catholic School,
           St. Croix, U.S. Virgin Islands

        This report presents the results of our audit of the E-rate Program benefits received by
St. Mary’s Catholic School (School), from the Universal Service Fund. The E-rate Program
provides discounts on the cost of obtaining communication services, such as basic phone service,
Internet access, and internal connections (wiring and network equipment), to eligible schools and
libraries. The objectives of this audit were to determine whether the School complied with the
E-rate Program rules and regulations, and to identify Program areas that may need improvement.
We conducted this review in accordance with the Memorandum of Understanding between the
Department of the Interior Office of Inspector General, the Universal Service Administrative
Company, the Federal Communications Commission (FCC) Office of Managing Director, and
the FCC Office of Inspector General.

        We concluded that the School did not comply with key requirements of the E-rate
Program for Funding Year 2000. However, we were not able to determine whether the School
complied with all E-Rate Program requirements because of a lack of records. We recommend
that the FCC Office of Inspector General take the actions necessary to resolve the report
findings.

       We held an exit conference January 14, 2004, with the School’s Assistant Principal to
discuss a preliminary draft of this report, which was provided to the School on January 8, 2004.
The School’s February 4, 2004, response (see Appendix) from its Administrator expressed
agreement with the report’s findings.

        If you have any questions regarding this report, please contact me at (703) 487-5345.
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                                                  Table of Contents
                                                                                                                      Page

INTRODUCTION ...................................................................................................       1
     Background ..................................................................................................     1
     Objectives, Scope, and Methodology ..........................................................                     2
     Scope Limitation ..........................................................................................       3

RESULTS OF REVIEW ..........................................................................................           4
     Summary ......................................................................................................    4
     Technology Plan Not Adequately Prepared .................................................                         4
        Required Plan Elements .........................................................................               4
        Overall Plan Deficiencies ......................................................................               5
     School Funding Not Budgeted or Approved ...............................................                           6
        Lack of Support for Payment of Non-Discounted
            Portion of Contracted Services ........................................................                    6
     Competitive Award Process Not Documented ............................................                             7
     Record Keeping Inadequate .........................................................................               8
        Consultant’s Records Not Available ......................................................                      8

APPENDIX

          St. Mary’s February 4, 2004, Response to the Preliminary
              Draft Report Discussed at the Exit Conference .....................................                     10

ACRONYMS

DOI ................Department of the Interior
FCC ................Federal Communications Commission
LAN ..............Local Area Network
MDF...............Main Distribution Frame
MOU ..............Memorandum of Understanding
OIG ................Office of Inspector General
SLD ................Schools and Library Division of USAC
USAC.............Universal Service Administrative Company
USF ................Universal Service Fund
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School



                         INTRODUCTION
                            The Universal Service Fund (USF) provides affordable access to
Background                  eligible communications services for schools, libraries, rural health
                            care providers, low-income consumers, and companies serving high-
                            cost areas. On May 7, 1997, the Federal Communications
                            Commission (FCC) adopted a Universal Service Order (FCC Order
                            97-157) implementing the Telecommunications Act of 1996,
                            including the E-rate Program of the USF.

                            The Universal Service Administrative Company (USAC) is
                            responsible for administering the USF under the direction of the FCCs
                            Wireline Competition Bureau. The Schools and Library Division of
                            USAC (SLD) administers the E-rate Program. Under the E-rate
                            Program, eligible schools and libraries may receive discounts from 20
                            to 90 percent of the cost of eligible communication services,
                            depending on economic need and location of the beneficiary.

                            Discounts may be applied to three kinds of eligible communication
                            services:

                             • Telecommunication services, including basic phone service.
                             • Internet access.
                             • Internal connections, including wiring and network equipment
                               needed to bring information directly to classrooms or library
                               patrons.

                            In accordance with the Inspector General Act of 1978, as amended,
                            the FCC Office of Inspector General (OIG) has oversight
                            responsibilities for the USF as a Federal program of the FCC. The
                            FCC OIG has designed a plan of audit oversight to provide FCC
                            management with a reasonable level of assurance that E-rate
                            beneficiaries are complying with E-rate Program rules and regulations
                            and that E-rate Program controls are adequate to prevent fraud, waste,
                            and abuse.

                            We conducted this review in accordance with a Memorandum of
                            Understanding (MOU) between the Department of the Interior (DOI)
                            OIG, USAC, FCC Office of Managing Director, and the FCC OIG.
                            Under the MOU, DOI OIG will apply specific procedures for the
                            audit of beneficiaries of E-rate Program funds.




                                               1
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                                    St. Mary’s Catholic School is a church-based parishioner-supported
                                    school that has been providing an academic program to its
                                    community for over a century. The School is located in
                                    Christiansted, St. Croix, U.S. Virgin Islands. The School offers
                                    academic programs for approximately 200 students in pre-
                                    kindergarten through 8th grade. The School is accredited by the
                                    Middle States Association of Colleges and Schools.

                                    Our objectives were to determine whether the School complied with
Objectives, Scope                   the rules and regulations of the E-rate Program and to identify
and Methodology                     Program areas that may need improvement.

                                    The scope of the review was designed to test school compliance with
                                    the following E-rate Program requirements contained in Title 47, Part
                                    54 of the Code of Federal Regulations (47 CFR § 54.500 through 47
                                    CFR § 54.520):

                                     • The school certifies it has an approved technology plan.
                                     • The school determines its discount percentage based on the
                                       percentage of their student enrollment that is eligible for a free or
                                       reduced price lunch under the national school lunch program or a
                                       federally-approved alternative mechanism1.
                                     • Services rendered comply with the school’s application for E-rate
                                       funds and are installed or provided before the installation
                                       deadline.
                                     • The school uses a competitive process to select the most cost
                                       effective service provider.
                                     • The school purchases equipment and services in accordance with
                                       applicable procurement rules and regulations.
                                     • The applicant pays its portion of the pre-discounted costs.
                                     • The school certifies it has adequate resources to use the
                                       discounted services for which funding has been provided.
                                     • The school certifies that it has complied with all of the program
                                       rules.




1
  Because the U.S. Virgin Islands provide free meals or milk to all children in schools under their jurisdiction they are
not required to make individual eligibility determinations (7 CFR § 245.4). According to USAC, the U.S. Department
of Agriculture verified that all schools in the Virgin Islands are eligible for the free lunch program. The U.S. Virgin
Islands Department of Education substantiated that all students are eligible for the Child Nutrition Lunch Program. As a
result, USAC determined that all schools in the Virgin Islands were eligible for a 90 percent discount rate for the
funding years audited.




                                                           2
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                            Funds USAC committed and disbursed for Funding Years 2000 and
                            2001 by service type follow:

                               Funding      Amount            Amount
                                Year       Committed          Disbursed        Service Type
                                 2000               $4,869             $0   Telecommunications
                                 2000                2,700          2,400   Internet Access
                                 2000           144,144          117,651    Internal Connections
                                 2001               $2,160             $0   Telecommunications
                              TOTALS           $153,873         $120,051


                            We performed our review of the School during the period March
                            through December 2003. We visited the School in March and May
                            2003 to conduct an entrance conference with the School
                            administration, perform site inspections, conduct an inventory
                            verification of the equipment installed by the service providers, and
                            obtain documentation needed for our review.

                            We conducted our review in accordance with Government Auditing
                            Standards issued by the Comptroller General of the United States. As
                            part of our review, we obtained an understanding of the School’s
                            specific management controls relevant to the E-rate Program.
                            Because of inherent limitations, a study and evaluation made for the
                            limited purposes of our review would not necessarily disclose all
                            material weaknesses in the control structure.

                            Our audit was limited in that the School did not have complete
Scope Limitation            records to substantiate whether it complied with all rules and
                            regulations of the E-rate Program. School officials advised us that
                            they hired a consultant to manage the School’s Funding Year 2000 E-
                            rate Program. The officials also told us that the consultant was no
                            longer working or living in the area and that the School did not have
                            many of the consultant’s records of the work performed on behalf of
                            the School. As a result, we were not able to determine whether the
                            School complied with all E-rate Program requirements.




                                                3
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School



                        RESULTS OF REVIEW
                                       We found that the School did not meet two of the key requirements
Summary                                for E-rate Program assistance. Specifically, the School:

                                         ¾ Did not have an adequately prepared technology plan.

                                         ¾ Did not budget or approve funding to pay the non-discounted
                                           portion of contracted services and for other technology related
                                           expenditures.

                                       In addition, we found that the School:

                                         ¾ Did not maintain records for the competitive award of three
                                           contracts totaling $137,884.

                                         ¾ Did not maintain adequate records of its E-rate program
                                           activities or those performed by the School’s consultant.

                                         These matters are discussed in more detail in the paragraphs that
                                         follow.

                                       The School’s technology plan (Plan) was deficient because it did not
Technology Plan Not adequately address the five technology plan elements that USAC
Adequately Prepared guidance required for technology plan approval.

      Required Plan                    USAC guidance states that technology plans must address five
      Elements                         criteria that are core elements2 of the plan. The approver must
                                       determine that the technology plan:

                                           • Establishes clear goals and a realistic strategy for using
                                             telecommunications and information technology to improve
                                             education; (FCC Order 97-157, paragraph 573)
                                           • Has a professional development strategy to ensure that staff
                                             know how to use these new technologies to improve
                                             education; (FCC Order 97-157, paragraph 572 (4))
                                           • Includes an assessment of the telecommunication services,
                                             hardware, software and other services that will be needed to
                                             improve education services; (FCC Order 97-157, paragraph
                                             572)
                                           • Provides for a sufficient budget to acquire and support the
                                             non-discounted elements of the plan: the hardware, software,
                                             professional development, and other services that will be

2
    We determined that four of the five criteria are based on FCC Order 97-157. See reference in each requirement.




                                                            4
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                                  needed to implement the strategy; (FCC Order 97-157,
                                  paragraph 574) and
                                • Includes an evaluation process that enables the school to
                                  monitor progress toward the specified goals and make mid-
                                  course corrections in response to new developments and
                                  opportunities as they arise.

       Overall Plan          We identified three overall deficiencies in the School’s Plan as
       Deficiencies          follows:

                                • The Plan did not identify the period it covered or the effective
                                  date.
                                • There was no signature of a School official, which would
                                  signify that the Plan was a policy and planning document of
                                  the School.
                                • Three sections of the Plan were the same as sections in the
                                  plans for a high school and an elementary school where the
                                  consultant was also working and thus may not have reflected
                                  the specific needs of the School.

                                In addition, the Plan did not specifically address the five required
                                core elements as follows:

                                    Plan goals were general and the Plan lacked a strategy
                                     describing how the School would use technology to
                                     improve the education of its students.
                                    The Plan talked in generalities about training the staff and
                                     students in basic skills on how to use a computer. The
                                     Plan did not discuss how the staff would be trained to
                                     integrate technology into the education process or how
                                     computer technology will be used to enhance/ improve
                                     education in the core curriculum areas.
                                    The Plan identified some hardware the School anticipated
                                     purchasing, but there was no timetable for acquiring the
                                     hardware or budget information for financing the
                                     purchases. The Plan did not discuss any specific
                                     education-related software applications. Overall, the Plan
                                     did not specifically identify how addressing the School’s
                                     technology needs (hardware, software, or training) would
                                     improve education services.
                                    The budget and funding section did not identify financing
                                     sources or otherwise substantiate that the School had
                                     adequate resources for acquiring necessary hardware and
                                     software, and for training staff on the use of the new
                                     services.
                                    The Plan did not identify specific elements or criteria by
                                     which to measure progress. The evaluation section did



                                               5
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                                                state that the “Technology Committee” would monitor and
                                                evaluate progress and that the “Committee” would report
                                                progress to the administration.

                                     The School had not budgeted and approved funding to pay the
School Funding Not                   non-discounted portion of the contracted services and the cost of any
Budgeted or                          necessary hardware, software, and/or staff training to utilize the
Approved                             acquired E-rate Program services effectively. Title 47 CFR
                                     § 54.504(b)(2)(v) requires3 schools to certify on FCC Form 470
                                     (Description of Services Requested and Certification) that:

                                            All of the necessary funding in the current funding
                                            year has been budgeted and approved to pay for the
                                            “non-discount” portion of requested connections and
                                            services as well as any necessary hardware or
                                            software, and to undertake the necessary staff
                                            training required to use the services effectively.

                                     As already noted, the School’s Plan did not identify financing to
                                     support the new services. When asked about a technology budget,
                                     School personnel told us that there was no budget and that the
                                     School relied on private donations and the U.S. Department of
                                     Education Title VI monies for its technology needs. Therefore,
                                     lacking a budget and approved funding for technology, the School
                                     did not meet a key requirement for receiving E-rate Program
                                     discounts.

      Lack of Support                The School did not have records to substantiate that it paid the
      for Payment of                 non-discounted portion of contracts. The School had two contracts
      Non-Discounted                 for internal connections and a contract for internet access as follows:
      Portion of
      Contracted                     •   The School contracted with Dell Marketing, Inc. to provide the
      Services                           network servers, racks, uninterrupted power supplies,
                                         installation, and configuration of the main distribution frame
                                         (MDF) of the local area network (LAN). Dell claimed a total
                                         undiscounted amount of $41,606.56 for services rendered on its
                                         ‘Service Provider Invoice,’ FCC Form 474. School personnel
                                         told us that the consultant and his wife, a parishioner, and
                                         Lindsey Electronics paid the $3,745 non-discounted portion of
                                         the Dell contract. The School did not have any records of the
                                         payment.
                                     •   The School contracted with Lindsey Electronics, Inc. for the
                                         construction and installation of the LAN backbone cabling and
                                         the wiring of the routers/hubs and drops to connect the School’s
                                         rooms to the MDF. Lindsey claimed a total undiscounted

3
    Requirement contained in FCC Order 97-157, Paragraph 577.




                                                         6
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                                         amount of $93,277.80 for services rendered on its ‘Service
                                         Provider Invoice,’ FCC Form 474. School personnel told us that
                                         Lindsey did not bill the School for the $9,328 non-discounted
                                         portion of the contract because the owner considered it a
                                         donation to the School. We were not able to confirm the
                                         School’s assertion with Lindsey Electronics because the
                                         company was no longer in business.
                                     •   The School contracted with Wireless World, L.L.C., for Internet
                                         access. Wireless World claimed a total undiscounted amount of
                                         $2,999.52 for services rendered on its ‘Service Provider
                                         Invoice,’ FCC Form 474. School personnel told us that Wireless
                                         World billed USAC directly for the Internet services provided to
                                         the School and did not bill the School for the $300
                                         non-discounted portion of the contract.

                                     Title 47 CFR § 54.504(a) requires schools to seek competitive bids
Competitive Award                    and § 54.511(a) requires that schools selecting a provider of eligible
Process Not                          services shall carefully consider all bids submitted and may consider
Documented                           relevant factors other than the pre-discount prices submitted by
                                     providers. Title 47 CFR § 54.516(a) requires schools to maintain for
                                     their purchases of telecommunications and other supported services
                                     at discounted rates the kind of procurement records that they
                                     maintain for other purchases.

                                     The FCC competitive bid system consists of USAC posting the
                                     applicant’s completed FCC Form 470, which describes the services
                                     requested, to an internet website4. Prospective service providers
                                     may contact the applicant for additional information and/or submit a
                                     bid to the school for the requested services. To give prospective
                                     service providers time to submit bids, the applicant must wait
                                     28 days after the internet posting before entering into a contract. We
                                     determined from USAC documentation that the School’s FCC
                                     Form 470 was posted to the USAC website and that the School
                                     waited the requisite 28 days before awarding contracts.

                                     Although the School did not have written procurement requirements,
                                     we found that it did follow an established process, based on sound
                                     business and accounting practices, to document its purchases. The
                                     School maintained files that included purchase requests, vendor
                                     quotes or prices, management’s approval to purchase, receipts of
                                     goods or services, invoices, and payment approvals. However, the
                                     School did not have any records of its E-rate procurement selection
                                     and award process. According to School personnel, their consultant
                                     negotiated with the service providers and recommended the firm the
                                     School should select.

4
 Title 47 CFR § 54.504(a) states “These competitive bid requirements apply in addition to state and local competitive
bid requirements and are not intended to preempt such state or local requirements.”




                                                           7
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                             The School did not comply with the requirement for record keeping.
Record Keeping               Title 47 CFR § 54.516 Auditing, establishes record keeping and
Inadequate                   production of records requirements for schools as follows:

                                   (a) Recordkeeping requirements. Schools and
                                   libraries shall be required to maintain for their
                                   purchases of telecommunications and other
                                   supported services at discounted rates the kind of
                                   procurement records that they maintain for other
                                   purchases.
                                   (b) Production of records. Schools and libraries
                                   shall produce such records at the request of any
                                   auditor appointed by a state education department,
                                   the Administrator, or any state or federal agency
                                   with jurisdiction.

                             In addition, FCC Form 471, Block 6, certification No. 32 states, “I
                             (school) recognize that I may be audited pursuant to this application
                             and will retain for five years any and all worksheets and other
                             records I rely upon to fill out this application.”

                             In this particular review, we had to significantly limit the scope of
                             this audit or rely on time-consuming methods because of the lack of
                             records to substantiate the School’s compliance with program rules
                             and regulations. For example, as discussed previously we found that
                             the School could not document the competitive award process or the
                             payment of the non-discounted portion of contracted services. In
                             addition, we found that the School could not document the work
                             performed by the consultant, as discussed in the following section.

   Consultant’s Records The School agreed to pay a consultant $900 to manage its E-rate
   Not Available        Program - $500 was to be paid initially, and $400 was to be paid
                        when the School received the Funding Commitment Decision Letter.
                        On December 7, 1999, the School paid the consultant the initial
                        $500; however, School personnel told us that the consultant never
                        invoiced for the remaining $400.




                                               8
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School


                             According to the agreement, the consultant would perform the
                             following services:

                             •   File the FCC Form 470.
                             •   Work with the School to develop the “USAC required three (3)
                                 year Technology Plan” for the School.
                             •   Obtain approval for the Technology Plan “from our designated
                                 VI agency”.
                             •   Develop a comprehensive “Request for Proposal” as required by
                                 USAC.
                             •   File the FCC Form 471.
                             •   Upon receiving the Funding Commitment Decision Letter from
                                 USAC, file the FCC Form 486.

                             School personnel told us that:

                             •   The consultant prepared and filed all of the FCC documents and
                                 provided the documents to the School for signature when
                                 required for filing purposes.
                             •   The consultant negotiated with service providers and
                                 recommended whom the School should contract with for
                                 requested services.
                             •   The School did not have many of the consultant’s records.

                             We could not review the consultant’s records or talk with him
                             because according to a School official he had moved to South
                             America.

                             Our review disclosed that there were management control
                             deficiencies with respect to the work performed by the consultant.
                             Specifically, we found that:

                             •   The School’s Plan did not meet FCC criteria.
                             •   Information on the FCC Forms 470 and 471 were not supported.
                             •   The School’s records supporting the E-rate application process
                                 were incomplete.
                             •   The School was not able to respond fully to our requests for
                                 information or supporting documentation.




                                               9
Final Report on Audit of the E-rate Program at St. Mary’s Catholic School

                                                                            APPENDIX




                                              10
